   June 29, 2004




Acquisition
Controls Over Purchase Cards at
Naval Medical Center San Diego
(D-2004-096)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
APC                   Agency Program Coordinator
DFAS                  Defense Finance and Accounting Service
DMDC                  Defense Manpower Data Center
DMLSS                 Defense Medical Logistics Support System
FISC                  Fleet and Industrial Supply Center
GAO                   General Accounting Office
GSA                   General Services Administration
HMD                   Head, Material Management Department
NMCSD                 Naval Medical Center San Diego
PICU                  Pediatric Intensive Care Unit
          Office of the Inspector General of the Department of Defense
Report No. D-2004-096                                                       June 29, 2004
   (Project No. D2003LF-0101)

                         Controls Over Purchase Cards at
                         Naval Medical Center San Diego

                                Executive Summary

Who Should Read This Report and Why? Policy makers, senior managers, purchase
card program managers, and purchase card users should read this report to help identify
potential problem areas in their purchase card programs. Information contained in this
report identifies some of the pitfalls of the purchase card program. After reading this
report, managers should review their own purchase card programs and implement the
appropriate recommendations to strengthen their programs.

Background. This report is one in a series of reports that satisfies the requirements in
section 1007, “National Defense Authorization Act for Fiscal Year 2003,” for the
Inspector General of the Department of Defense to perform periodic audits of purchase
card programs. The purchase card is a Government-wide commercial charge card
available to offices and organizations for the purchase of goods and services. The
implementation of purchase card programs in DoD is intended to be a cost-saving
business initiative that reforms processes and improves mission effectiveness.

Results. We reviewed the purchase card program at Naval Medical Center San Diego
(NMCSD), California. For the 12 months ending June 2003, NMCSD had approximately
21,800 transactions for about $38.5 million using the purchase card. Purchase card
holders at NMCSD were properly appointed and trained and approving officials were
assigned the appropriate span of control for reviewing cardholder purchases. We found
no evidence of fraud for the 65 transactions reviewed. However, the NMCSD purchase
card program did not always provide reasonable assurance that potentially abusive,
improper, or unauthorized transactions would be promptly detected. Fifty-two of the
65 transactions we reviewed, valued at $53,000, had one or more internal control
weaknesses. Of the 52 transactions, 3 are considered abusive and 6 are considered
improper, as defined by the General Accounting Office. Further, if the billing cycle
limits had been set appropriately by NMCSD, the potential Government liability would
have been reduced by nearly $1.9 million for 18 of the 32 cardholders included in our
review. Improving internal controls will provide NMCSD management with better
safeguards and will reduce the financial risk that can result from abusive, improper, or
unauthorized transactions.

The Commander, NMCSD should require compliance with Navy guidance and NMCSD
internal operating procedures, establish administrative actions to be taken when policies
and controls are abused or ignored, and establish controls over items available for
purchase in the Defense Medical Logistics Support System department catalogs. See the
Finding section of the report for the detailed recommendations.
Management Actions. NMCSD management recognized the need to improve the
internal controls related to purchase approval, documentation, receipt, and reconciliation.
During our audit of the NMCSD purchase card program, the Head, Material Management
Department planned corrective actions to strengthen controls over the purchase card
program. Additional emphasis on training and supervision of cardholders was also
planned.

Management Comments and Audit Response. The Navy Bureau of Medicine and
Surgery (the Navy) concurred with seven of the recommendations and nonconcurred with
two recommendations. We considered comments on three of the recommendations to be
responsive, comments on two to be partially responsive, and comments on four to be
nonresponsive.

The Navy stated that it is in compliance with the Navy instruction to provide an audit
trail to support decisions to use the purchase card. The Navy stated that full procurement
cycle transactions are tracked in the Defense Medical Logistics Support System. We
disagree with the Navy position because the Defense Medical Logistics Support System
did not include source documents necessary for review to ensure items ordered and paid
for were received. The Navy also stated that action was considered complete to ensure
funding is available prior to any purchase card transaction. We do not agree; monthly
reviews did not identify instances where proper and adequate funding was not available
prior to a purchase. The Navy also stated that there was a renewed emphasis to monitor
billing cycle limits. We request additional information on actions taken to adjust the
billing limits for cardholders.

The Navy concurred with the recommendation to establish written actions to be taken
when policies and controls are abused or ignored. We considered the comments to be
responsive. The Navy nonconcurred with the recommendation to conduct semi-annual
reviews of departmental catalogs to remove unused catalog records and to screen for
sources of supply and for reasonableness of prices. However, the Navy agreed to
periodic reviews of departmental catalogs. We accept the Navy’s proposed alternative
corrective action and revised the recommendation accordingly. We request details of the
Navy’s plan to conduct scheduled reviews of catalog record categories. We request that
the Navy provide comments on the final report by August 30, 2004. See the Finding
section for a discussion of management comments and audit response and the
Management Comments section of the report for a complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                            i

Background                                                  1

Objectives                                                  3

Finding
     Naval Medical Center San Diego Purchase Card Program    4

Appendixes
     A. Scope and Methodology                               16
          Management Control Program Review                 18
     B. Prior Audit Coverage                                19
     C. Transactions at Naval Medical Center San Diego      21
     D. Report Distribution                                 25

Management Comments
     Department of the Navy                                 27
    This audit was performed to meet the requirements of Public Law 107-314,
    “National Defense Authorization Act for Fiscal Year 2003,” December 2, 2002,
    which states in section 1007:

    “The Inspector General of the Department of Defense . . . perform periodic audits
    to identify—

           (A) potentially fraudulent, improper, and abusive uses of purchase cards;

           (B) any patterns of improper cardholder transactions, such as purchases of
               prohibited items; and

           (C) categories of purchases that should be made by means other than
               purchase cards in order to better aggregate purchases and obtain
               lower prices.”


Background
    Federal Purchase Card Program. The purchase card is a Government-wide
    commercial charge card available to offices and organizations for the purchase of
    goods and services. Purchase cards can also be used for making contract
    payments. The General Services Administration (GSA) awarded the first
    Government-wide purchase card contract in 1989. Public Law 103-355, “The
    Federal Acquisition Streamlining Act of 1994,” October 1994, established $2,500
    as the micro-purchase threshold and eliminated most of the procurement
    restrictions for the purchases identified within that threshold. A micro-purchase
    is an acquisition of supplies or services in which the aggregate amount does not
    exceed $2,500. In 1995, the Federal Acquisition Regulation designated the
    purchase card as the preferred method to pay for micro-purchases. In April 2002,
    GSA published “Blueprint For Success: Purchase Card Oversight” to serve as an
    information source for preventing and detecting misuse and fraud with
    Government purchase cards.
    DoD organizations are responsible for distributing cards, training employees, and
    managing the daily aspects of the purchase card program. Each participating
    organization designates an office to manage the program, which includes ensuring
    that training is provided, maintaining a current list of cardholders and approving
    officials, and performing an annual oversight review of the program. Also,
    designated approving officials authorize and approve purchases for payment.
    Once a cardholder makes an authorized purchase, the cardholder and approving
    official reconcile the purchased goods and services with the bank statement, and
    the approving official requests payment by the Defense Finance and Accounting
    Service (DFAS).

    The implementation of purchase card programs in DoD is intended to be a
    cost-saving business initiative that reforms processes and improves mission
    effectiveness. The purchase card program allows DoD to replace the
    time-consuming purchase order process, thus reducing procurement lead-time,



                                        1
transaction cost, and procurement office workload and facilitates a less costly
payment process.

According to the Department of the Navy eBusiness Operations Office’s
September 2002 update on its purchase card program, the Navy used the purchase
card for 98 percent of all its requirements under $2,500. As of September 2002,
the Navy stated that its annual transaction volume was 2.8 million purchase card
transactions that represented an annual total dollar value of approximately
$1.8 billion.

Purchase Card Joint Program Management Office. The Deputy Secretary of
Defense established the Purchase Card Joint Program Management Office in
March 1998 to provide a centralized program management structure over the
purchase card program. The Program Management Office reports to the Director,
Defense Procurement and Acquisition Policy, within the Office of the Under
Secretary of Defense for Acquisition, Technology, and Logistics. The Program
Management Office is staffed with representatives from each of the Military
Departments, the Defense Logistics Agency, and DFAS. Finance and accounting
issues are coordinated with the Under Secretary of Defense (Comptroller)/Chief
Financial Officer. The Program Management Office responsibilities include
promoting purchase card use, coordinating contract requirements within GSA,
managing delinquencies, deploying a standard DoD-wide management and
reconciliation system, and developing DoD-wide training.

DoD Charge Card Task Force. On March 19, 2002, the Under Secretary of
Defense (Comptroller)/Chief Financial Officer established a DoD task force to
examine the management of DoD purchase card programs. The task force was
comprised of representatives from a broad range of DoD organizations in
consultation with non-DoD organizations. The goal of the task force was to
develop recommendations to improve DoD purchase card programs without
adversely affecting the effectiveness of the programs. On June 27, 2002, the task
force issued the “Department of Defense Charge Card Task Force Final Report.”
The task force developed 25 recommendations to improve the DoD purchase card
program. The recommendations included increasing management’s emphasis of
the program and personal accountability and implementing improved
management metrics. The recommendations also included strengthening internal
controls, increasing the tools available to managers for enforcing those controls,
and enhancing the capability of the workforce to accomplish assigned purchase
card responsibilities.

Naval Medical Center San Diego Purchase Card Program. Naval Medical
Center San Diego (NMCSD), California, designated the Material Management
Department as the office to manage its purchase card program. As of June 2003,
the NMCSD purchase card program consisted of one agency program coordinator
(APC), one alternate APC, 142 active cardholders, and 78 approving officials.
For the 12 months ending June 2003, NMCSD had approximately 21,800
transactions for about $38.5 million using the purchase card.

NMCSD uses the Defense Medical Logistics Support System (DMLSS) for
committing funds for subsequent purchase card acquisitions. Each NMCSD
department has its own operational funding target, which is a level of approved


                                     2
    funding for that department’s specific expense account. Purchases recorded
    through DMLSS commit funds for that specific expense account. Once the
    purchase card billing statement is received and approved for payment, funds are
    disbursed by DFAS.


Objectives
    The overall audit objective was to evaluate the military health system’s issuance
    and use of purchase cards. Specifically, we evaluated the appropriateness of
    purchases and the controls over the use of purchase cards at NMCSD. We also
    evaluated the management control program as it related to the audit objectives.

    Our intention was to evaluate the purchase card program throughout the military
    health system. We planned a phased approach to assess the purchase card
    program at military treatment facilities in each Military Department beginning
    with the Navy at NMCSD. However, travel fund limitations during 2003 and
    the reassignment of audit staff to statutory audit requirements caused us to limit
    our review to NMCSD. Because of the increased focus on the purchase card
    program throughout DoD, we do not plan to do further work at this time on the
    use of purchase cards in the military health system. See Appendix A for a
    discussion of the audit scope and methodology and our review of the management
    control program, and see Appendix B for prior coverage.




                                         3
            Naval Medical Center San Diego
            Purchase Card Program
            Purchase card holders at NMCSD were properly appointed and trained,
            and approving officials were assigned the appropriate span of control for
            reviewing cardholder purchases. For the 65 transactions reviewed, there
            was no evidence of fraud. However, the NMCSD purchase card program
            did not always provide reasonable assurance that potentially abusive,
            improper, or unauthorized transactions would be promptly detected. That
            occurred because established purchase card program internal control
            procedures were not fully implemented by NMCSD management, the
            APC, transaction approving officials, or individual cardholders. For
            example, 52 of the 65 transactions reviewed, valued at $53,000, had one
            or more internal control weakness. We considered 9 of the 52 transactions
            to be abusive or improper, as defined by the General Accounting Office
            (GAO). Improving internal controls will provide NMCSD management
            with better safeguards and will reduce the financial risk that can result
            from abusive, improper, or unauthorized transactions. Further, by
            appropriately setting billing cycle limits, the potential Government
            liability at NMCSD would have been reduced by nearly $1.9 million for
            18 of the 32 cardholders included in our review.


Criteria
     GAO Report No. GAO-03-678G, “Auditing and Investigating the Internal Control
     of Government Purchase Card Programs,” May 2003, defines three types of
     purchases that are not in accordance with laws and regulations as abusive,
     improper, or unauthorized. Abusive purchases are those that are intended for
     Government use but for which there is no valid requirement or which are
     purchased at an excessive cost. Improper purchases are also for Government use
     but are not permitted by law, regulation, or DoD policy. Improper purchases
     include purchases that are split in order to avoid the $2,500 micro-purchase
     threshold and purchases from other than mandatory sources of supply.
     Unauthorized purchases are not for Government use and are not permitted by law.
     Unauthorized purchases are considered potentially fraudulent when items appear
     to be for personal use.

     On September 19, 2002, the Department of the Navy Purchase Card Program
     Management Office issued the eBusiness Operations Office Instruction 4200.1,
     “Department of the Navy Policies and Procedures for the Operation and
     Management of the Government Commercial Purchase Card Program” (the Navy
     Instruction). The Navy Instruction was subsequently updated on September 3,
     2003. The Navy Instruction includes general policies and procedures for
     management of the program and establishes internal controls that include review
     responsibilities. Specifically, the Navy Instruction describes items that are not
     allowed for purchase card procurement such as travel and travel-related expenses.
     The Navy Instruction also requires supporting documentation for purchases so
     that approving officials and other management personnel can oversee the


                                         4
    transaction process. Additionally, the Navy Instruction requires adherence to
    established internal control policies in order to ensure that transactions are for
    mission-essential requirements, are adequately funded from appropriate sources
    of supply, and that the Navy only pays for items that are received.


Oversight and Purchase Card Program Internal Controls
    NMCSD purchase card holders were properly appointed and received required
    training. In addition, approving officials, who perform oversight of transactions,
    were assigned the appropriate span of control for reviewing cardholder purchases.
    However, the purchase card program did not always provide reasonable assurance
    that potentially abusive, improper, or unauthorized transactions would be
    promptly detected.

    For the 65 transactions reviewed, there were no unauthorized purchase card
    transactions. Additionally, there was no evidence that fraud occurred during the
    65 transactions. However, 52 of the 65 transactions had one or more internal
    control weaknesses. Internal control weaknesses included:

           •   inadequate technical reviews,

           •   lack of assurance of proper and adequate funding before purchases
               were made,

           •   lack of supporting documentation for the purchase,

           •   inadequate or missing receipt and acceptance documentation, and

           •   certification for payment without supporting documentation.

    Of the 52 transactions with internal control weaknesses, we considered 3 to be
    abusive transactions and 6 to be improper transactions.

    Abusive or Improper Transactions. The nine transactions that we considered
    abusive or improper may have been prevented, reduced to mission-essential
    requirements, or promptly detected for corrective action if internal controls had
    been properly implemented. While we agree that most of the purchases appeared
    to have been needed at NMCSD, NMCSD personnel should have provided better
    oversight of the nine transactions.

    We considered three transactions to be abusive because the purchases were in
    excess of a documented need or were at an excessive cost. Purchase card holders
    are required to purchase only mission-essential requirements at fair and
    reasonable prices. Two transactions that we considered abusive were the
    purchase of a digital camera and digital camcorder. The items were considered
    excessive in requirement and price. The other abusive transaction was for
    designer protective eyewear for the operating room. We considered the eyewear
    transaction to be a purchase that was made at excessive cost.



                                         5
We considered six transactions to be improper because the purchases were not
permitted by law, regulation, or DoD policy. Cardholders are not permitted to
split requirements to avoid exceeding the micro-purchase threshold of $2,500.
Two of the improper purchases were considered a split purchase to avoid the
micro-purchase threshold limit. The cardholder advised us that a $4,900
requirement for blue and white stencils was intentionally split so that the
transaction could be completed with a purchase card.

One of the improper purchases was for food and refreshments, valued at $207,
which are not permitted by law. The APC identified this transaction during a
semi-annual review; however, the finding did not result in disciplinary action.
Personnel involved with the transaction were not held accountable for the misuse
of appropriated funds; however, counseling was provided to the current approving
official.

The other three improper transactions were completed using convenience checks.
Convenience checks can be used only after every attempt has been made to use
the purchase card. One check was written without exhausting all attempts to use
the purchase card for the items needed. Another check was written for travel
expenses of a non-military doctor who assisted in the treatment of a sailor at
NMCSD. The expenses should have been paid using another method, such as
invitational travel orders. The third check was written directly to a laboratory
technician for laboratory tests that were completed at Veterans Affairs facilities.
That transaction was referred to the Veterans Affairs Inspector General. A
complete discussion of the nine abusive or improper transactions is in
Appendix C.

Implementation of internal controls should provide NMCSD management with
reasonable assurance that the goals and objectives of its purchase card program
are met and will provide safeguards against abusive, improper, or unauthorized
transactions.

Internal Control Weaknesses. The following table summarizes the internal
control weaknesses and the number of occurrences for the 65 transactions we
selected for review. The table is followed by a discussion of each type of internal
control weakness.




                                     6
                             Summary of Internal Control Weaknesses at
                               NMCSD for 65 Transactions Reviewed*

                                                                   Number of Transactions
        Internal Control Weakness Identified                       With Identified Weakness

 Technical review                                                             4

 Assurance of proper and adequate funding before                              3
 purchase

 Supporting documentation                                                    43

 Receipt and acceptance documentation                                         4

 Approving official certification for payment without                        38
 supporting documentation

 *Some transactions had more than one internal control weakness.



Technical Review. There were four transactions, ranging in value from $436 to
$1,000, where the items were not properly screened by NMCSD personnel. The
Navy Instruction requires cardholders to screen all requirements for their
availability from mandatory Government sources of supply. Cardholders are also
required to purchase only mission-essential items at fair and reasonable prices
from responsible suppliers. Additionally, NMCSD personnel indicated that
cardholders are required to determine if items are available through a prime
vendor, which is a preferred source of supply.

Prime vendor agreements are the primary distribution channel for procurement
and delivery of a full range of commercial brand-specific pharmaceuticals and
medical or surgical supplies to a group of military treatment facilities in a given
geographical region. Pricing of items ordered through the prime vendor program
is determined by distribution and pricing agreements negotiated between the
Defense Supply Center Philadelphia and the manufacturer or distributor. The
prime vendor program provides access to more than one million items of medical
material.

In order to utilize DMLSS, each item must be available in the department’s
catalog of approved items. NMCSD personnel indicated that the screening of
requirements is completed by technical review personnel using a new item request
process. Technical review personnel are responsible for maintaining the
individual departmental catalogs. To have an item added to a catalog, a new item
request must be completed by the requesting department with justification and
appropriate departmental approval. Technical review personnel determine if the
item is related to the mission; is reasonably priced; is available through a
preferred source of supply, such as a prime vendor; and if special approvals are
required from departments, such as information technology or media services.
After technical review personnel complete the new item request process, the new
item request is either approved and added to the department’s catalog,
disapproved, or returned to the requesting department for further justification.


                                                    7
For one transaction, a cardholder ordered one case of syringe insulin from the
vendor who has the prime vendor agreement at NMCSD. Although the insulin
was available through the prime vendor agreement, the cardholder did not take
advantage of the prime vendor agreement but instead ordered the insulin directly
through the vendor. The new item request was received and reviewed; however,
it was not discussed with the prime vendor representative to determine if the item
was available. As a result, NMCSD paid an additional $272 for the syringe
insulin, which could have been avoided if an adequate technical review had been
accomplished prior to adding the item into the department’s catalog.

According to NMCSD personnel, technical review personnel are responsible for
maintaining the departmental catalogs. Once an item is entered into a catalog, the
cardholder can purchase the item until it is removed. Many items added to
departmental catalogs are non-recurring requirements; however, there are no
controls in place to keep cardholders from repeatedly purchasing an item without
going through the proper approval process. Non-recurring items should be
removed from departmental catalogs after payment has been confirmed, which
would prevent cardholders from purchasing items or quantities of items that
technical review personnel believe are inappropriate. Additionally, recurring
requirements that are in a departmental catalog should be reviewed on a semi-
annual or other recurring periodic basis to screen for mandatory source of supply
and a reasonable price.

Availability of Funds. For three transactions, ranging in value from $207 to
$2,480, cardholders did not utilize DMLSS before the purchase to ensure that
proper and adequate funding was available. The Navy Instruction requires
cardholders to ensure that proper and adequate funding is available prior to any
purchase card transaction. In order for cardholders to comply with this
requirement, NMCSD Internal Operating Procedures state that with the exception
of reimbursable requirements, the cardholder must utilize DMLSS for purchase
card transactions. DMLSS allows cardholders to view the remaining balance of
the budget target for their respective department’s expense account. By utilizing
DMLSS, cardholders are able to ensure that funds are available for a purchase
prior to committing funds to complete the transaction. Although adequate
funding was ultimately available for the three transactions, cardholders did not
ensure that proper and adequate funding was available prior to initiating the
transaction.

For example, a cardholder utilized DMLSS to commit funds for one box of
high-density thermal printing paper. After committing funds for only one box,
the cardholder recognized the need for four additional boxes. The order was
completed for five boxes in the amount of $245, resulting in a commitment of
funds for one box and a subsequent expenditure of funds for five boxes. Before
completing the purchase, the cardholder had only verified that funds were
available for one box of paper. The additional four boxes that were ordered
resulted in an unrecorded obligation of funds for the purchaser’s department.

Supporting Documentation. For 43 of the 65 transactions reviewed, which
ranged in value from $18 to $2,480, NMCSD personnel did not prepare or
maintain adequate documentation to support the mission-essential need or the
quantity ordered. “DoD Government Purchase Card Concept of Operations,”


                                     8
March 31, 2003, states that a mission-essential requirement must exist before a
decision is made to use the purchase card and that the item is appropriate for
purchase. The Navy Instruction states that purchase card documentation should
provide an audit trail supporting the decision to use the purchase card and should
include any special approvals that are necessary to justify the purchase.
Transaction files should be all-inclusive and auditable without going to the
cardholder for after-the-fact justification. Additionally, supporting
documentation should be located in each transaction file. Supporting
documentation provides approving officials and other reviewing officials the
opportunity to determine whether there is ongoing adherence to established
internal control policies.

On one transaction, the cardholder purchased three computers for $2,214. The
cardholder generated the purchase request and then purchased the items from that
self-generated request. There was no documentation or justification as to who
authorized the purchase of the computers or why the cardholder ordered three
computers. According to the cardholder, he could not remember who told him to
order the computers for the department. We located the computers and verified
that they were in use by NMCSD departmental personnel.

Receipt or Acceptance Documentation. For four transactions, ranging in value
from $280 to $2,480, adequate receipt or acceptance documentation was missing.
The Navy Instruction requires appropriate receipt and acceptance documentation
to accompany the monthly purchase card statement for review by the approving
official. Additionally, the Instruction requires the approving official to ensure
that proper receipt, acceptance, and inspection is accomplished on all items.
Receipt and acceptance documents assist personnel in reconciling ordered
quantities to those quantities actually received and also demonstrate whether the
ordering and receiving individual were the same person.

In one instance, a contract payment for $2,118 was made for contracted
laboratory supplies without documentation that the supplies were received. The
cardholder verified that a package was received from the company but could not
verify the contents. According to a representative from the laboratory, the
supplies were received; however, he could not say when or how many supplies
were received.

Approving Official Certification for Payment. For 38 transactions, ranging in
value from $18 to $2,480, approving officials certified transactions for payment
even though appropriate and complete transaction documentation was not
available. The Navy Instruction states that cardholders should purchase only
mission-essential items and requires approving officials to ensure that all
purchases made by cardholders within their cognizance are appropriate.
Additionally, the approving official is required to verify that the transaction
documentation is appropriate and complete prior to certification for payment.

In one instance, the cardholder ordered five cases of oxygenators for a specific
patient. Upon review, the cardholder noted that he had ordered the incorrect item.
According to the cardholder, the order was verbally changed with the vendor for
eight different oxygenators. The cardholder did not document the change on the
purchase order. The receiving report showed that two cases of oxygenators were


                                     9
received and that NMCSD personnel marked out the word “partial” and wrote
“full” on the receiving report, indicating that all oxygenators had been received.
The company invoice showed that eight oxygenators were shipped. Additionally,
the invoice was annotated, stating that it was paid in full by check. There was
limited and ambiguous documentation to support this transaction; however, the
approving official certified the purchase card statement for payment.

Examples of purchases that were approved as being mission essential without
supporting documentation were:

       •   latex prosthetics and stage blood used during triage training exercises,

       •   an industrial wastewater control permit, and

       •   designer protective eyewear for operating room use.

Other Weaknesses. Seventeen of the 32 cardholder billing cycle limits reviewed
had excessive limits, ranging from $600 to $68,000. The Navy Instruction states
that each cardholder’s account and delegation of spending authority shall include
a billing cycle purchase limit. On a semi-annual basis, the APC is responsible for
reviewing a cardholder’s expenditures for the previous 12 months. To establish
the appropriate billing cycle purchase limit, the APC should select the highest
expenditure for the previous 12 months and add 20 percent. When the billing
cycle limit for a cardholder is too high, it increases the risk to the Government
that unauthorized purchases could be made.

One cardholder’s approved limit was significantly less than the limit established
at the bank, which also increases the risk to the Government. The approved limit
for this cardholder was $600,000; however, the established bank limit was
$2.25 million. If the billing cycle limits had been set appropriately by NMCSD,
the potential Government liability would have been reduced by nearly
$1.9 million for the 18 cardholders.

Additionally, in the 12-month period ending June 2003, there were five instances
of cardholders exceeding their established billing cycle limits by a total of
$418,000. Approving officials are also responsible for reviewing transactions
before certifying a cardholder’s monthly statement for payment. Approving
officials should verify that purchase card holders do not spend above their
approved limits without prior consent from the APC through a temporary
delegation of authority. Additionally, during the semi-annual review, the APC
should ensure that cardholders do not exceed their authorized billing cycle limits.

A viable system of internal controls will minimize losses and will help NMCSD
management to ensure that purchase cards are used for only Government
requirements that are within the guidelines of its purchase card program.
Continuous compliance with internal controls will reduce the vulnerability and
financial risk at NMCSD and will provide management with additional
safeguards against fraud, waste, and abuse of the purchase card program. See
Appendix A for a discussion of management controls.




                                    10
Management Actions
    During our audit of the NMCSD purchase card program, material management
    personnel planned to take corrective actions to strengthen controls over the
    purchase card program. While NMCSD management did not agree with all of our
    conclusions, it recognized the need to improve the internal controls related to
    purchase approval, documentation, receipt, and reconciliation.

    As of September 2003, NMCSD had made plans to emphasize training and
    supervision of cardholders. Additional initiatives to strengthen controls were also
    in progress. Examples include:

           •   monthly training sessions for cardholders and approving officials,

           •   revised letters of delegation requiring cardholders and approving
               officials to acknowledge that they understand their responsibilities,
               and

           •   implementation of a disciplinary program for cardholders and
               approving officials.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of management comments, we revised
    draft Recommendation 3.b. to clarify the frequency of reviews of departmental
    catalogs.

    We recommend that the Commander, Naval Medical Center San Diego:

           1. Require cardholders, approving officials, and the agency program
    coordinator to comply with Department of the Navy eBusiness Operations
    Office Instruction 4200.1 and NMCSD Internal Operating Procedures for:

                  a. Providing an audit trail to support the decision to use the
    card, including any special approvals that are required.

                 b. Providing appropriate documentation of receipt and
    acceptance with the monthly purchase card statements to the approving
    official.

                  c. Purchasing only mission-essential requirements and
    ensuring that all purchases made by the cardholders are appropriate.

                  d. Ensuring that proper and adequate funding is available
    prior to any purchase card transactions.




                                        11
            e. Verifying the accuracy and completeness of transaction
documentation prior to certifying for payment.

              f. Reducing billing cycle limits to 20 percent above the largest
billing statement amount over the last 12 months.

Navy Comments. With the exception of Recommendation 1.b., the Navy Bureau
of Medicine and Surgery (the Navy) concurred with Recommendation 1. The
Navy stated that NMCSD complies with the Navy Instruction and NMCSD
internal operating procedures. The Navy also stated that NMCSD uses DMLSS
to track the full procurement cycle of purchase card transactions. The Navy
stated that DMLSS provides an electronic record of the complete transaction
history and did not agree that NMCSD needs to comply with procedures for
providing receipt and acceptance documentation with monthly purchase card
statements. The Navy stated that purchases made by NMCSD cardholders were
mission essential and that APC monthly reviews are designed to identify any
post-obligation funding increases. The Navy stated that the mission essential
requirement for particular purchases is apparent to purchase card holders, due to
their familiarity with the various departments and clinics throughout NMCSD.
Nevertheless, the Navy is conducting training for its cardholders to electronically
document the files as to the nature and requirement of the purchase. Additionally,
the Navy stated that APC monthly reviews are designed to identify any
post-obligation fund increase activity. The Navy also stated that NMCSD holds
monthly training sessions and closely monitors approving official and cardholder
activity to ensure they follow the proper procedures. Finally, the Navy stated that
there is a renewed NMCSD emphasis for command APCs to monitor individual
billing cycle limits.

Audit Response. We consider the Navy comments on Recommendation 1.c. to
be responsive, comments on Recommendation 1.f. to be partially responsive, and
comments on Recommendations 1.a., 1.b., 1.d., 1.e. to be nonresponsive. We
request that the Navy provide additional comments in response to the final report
for Recommendations 1.a., 1.b., 1.d., 1.e., and 1.f.

We disagree that DMLSS provides adequate documentation to support decisions
to use the purchase card, including any special approvals that are required. For 43
of 65 transactions reviewed, cardholders did not prepare or maintain adequate
documentation to support the mission-essential need or the quantity of the item
ordered. The lack of documentation supporting the requirements and the
appropriateness of the transactions was not in accordance with the Navy
Instruction that requires an audit trail supporting the decision to use the purchase
card. In response to the final report for Recommendation 1.a., we request that the
Navy provide comments on how it plans to ensure that transaction audit trails
supporting decisions to use the purchase card are available in DMLSS.

The Navy did not concur with Recommendation 1.b. and stated that DMLSS
provides an electronic record of the complete purchase card transaction history
that satisfies Navy requirements for receipt and documentation. The Navy
Instruction requires that purchase card holders provide an audit trail supporting
the decision to use the purchase card. Supporting documentation includes, but is
not limited to, accurate receipt and acceptance documentation for review by the


                                    12
approving official. Receipt and acceptance documents were not available to
support receipt postings in DMLSS for four transactions that we reviewed. As a
result, we do not believe that NMCSD had assurance that items ordered and paid
for were received. For example, one transaction, discussed in Appendix C, paid
for 900 coccidioidomycosis tests for which there were no receiving or acceptance
reports. We were not able to validate that services ordered were received because
a list of patients tested was not available. The order was paid based on an invoice
submitted by the vendor, reviewed and approved after the order was completed,
and electronically recorded as received after notification of payment by the
convenience check clerk. In response to the final report for
Recommendation 1.b., we request that the Navy reconsider its position and
provide additional information on how NMCSD plans to comply with Navy
requirements for providing to the approving official appropriate documentation of
receipt and acceptance with the monthly purchase card statements.

The Navy concurred with Recommendation 1.c. and no further action is required.
We reported that 38 of 65 transactions reviewed were approved for payment even
though the required documentation was not available. Training the cardholders to
document transaction files as to the nature and requirement of each purchase
should provide a basis for approving officials to determine that transactions are
mission essential and appropriate.

The Navy concurred with Recommendation 1.d., but we do not consider the
comments to be responsive. Approving officials and the APC reviewed the three
transactions discussed in the Finding section of this report but did not identify that
cardholders had not determined whether proper and adequate funding was
available prior to initiating the transactions. The Navy should emphasize to
cardholders as well as reviewing officials the need to verify appropriate funding
prior to any purchase card transaction. In response to the final report for
Recommendation 1.d., we request that the Navy provide additional information
on its plans to ensure compliance with the Navy Instruction and with procedures
requiring that cardholders ensure the availability of proper and adequate funding
prior to initiating a transaction. We also request comments concerning approving
official and APC compliance with procedures to ensure that proper and adequate
funding is available prior to initiating a transaction.

The Navy concurred with Recommendation 1.e., but we do not consider the
comments to be responsive. Although approving officials had been trained, they
approved 38 transactions for payment when appropriate and complete transaction
documentation was not available. In response to the final report for
Recommendation 1.e., we request that the Navy provide additional information on
how NMCSD plans to comply with the Navy Instruction that requires approving
officials and the APC to ensure that all purchases are appropriate and that
purchase documentation is complete prior to certifying the transaction for
payment.

The Navy concurred with Recommendation 1.f.; we consider the comments to be
partially responsive because of the Navy’s renewed emphasis for APCs to




                                     13
monitor and adjust billing cycle limits. In response to the final report for
Recommendation 1.f., we request that the Navy provide additional information
describing actions initiated and completed as a result of its renewed emphasis on
billing cycle limits.

        2. Establish, in writing, appropriate administrative action to be
initiated when policies and controls have been abused or ignored.

Navy Comments. The Navy concurred and stated that the Navy Instruction
provides detailed disciplinary guidelines for both civilian and military personnel
who abuse or ignore purchase card operating procedures. The Navy also stated
that NMCSD has established written procedures and sample letters that can be
customized based on the severity of abuse.

Audit Response. The Navy’s comments are responsive. On September 3, 2003,
after our visit to NMCSD, the Navy updated the Navy Instruction. The updated
guidance provides corrective, disciplinary, or adverse actions that may be taken
against employees who misuse or abuse the purchase card.

       3. Establish internal controls that are designed to prevent or detect
fraud, waste, and abuse of the purchase card program. At a minimum, the
internal controls should include emphasis on the following:

             a. Removal of specialty items from departmental catalogs
after payment has been confirmed.

               b. A semi-annual or other recurring periodic review of
departmental catalogs in order to remove unused catalog entries and screen
for sources of supply and reasonableness of prices.

Navy Comments. The Navy concurred with Recommendation 3.a. and stated
that catalog maintenance of all items purchased at NMCSD continues to be an
ongoing process. The Navy also stated that NMCSD submitted a system change
request to the DMLSS program office requesting a DMLSS modification that will
allow one-time purchase items to be tagged so that they cannot be purchased
again. The Navy also stated that NMCSD established manual monitoring
procedures to remove one-time purchase items from customer catalogs. The
Navy nonconcurred with Recommendation 3.b. and stated that screening for
sources of supply and reasonableness is performed at the new item request stage.
The Navy stated that screening each of the 60,000 catalog records would not be
feasible on a semi-annual basis but said that screening of specific categories for
sources of supply occurs periodically. The Navy cited the example of screening
all ink pens in the NMCSD catalogs to ensure they were procured from a reliable
source.

Audit Response. Navy comments on Recommendation 3.a. are fully responsive.
We consider the Navy comments on Recommendation 3.b. to be partially
responsive. We agree that a complete semi-annual review of 60,000 catalog
records could be impractical and agree that periodic screening of specific record
categories is a positive step to screen for appropriate sources of supply and
reasonableness of prices. Accordingly, we revised draft Recommendation 3.b. to


                                    14
include other recurring reviews of NMCSD catalog records. In response to the
final report, we request that the Navy provide information on its plans to conduct
regularly scheduled reviews of catalog record categories.




                                    15
Appendix A. Scope and Methodology
   We reviewed Federal legislation, DoD, GSA, Navy, and NMCSD guidance
   related to the management of the purchase card program and the acquisition
   process. The guidance was dated from October 1994 through July 2003. We also
   assessed NMCSD compliance with the guidance.

   At NMCSD, we evaluated the effectiveness of internal controls and the
   appropriateness of purchase card transactions. Specifically, we evaluated the
   effectiveness of technical reviews; availability of funding before purchases were
   made; supporting documentation for the purchase, receipt, and acceptance
   documentation; and certification for payment process. We reviewed transactions
   completed from July 1, 2002, through June 21, 2003. For that time period, there
   were 21,827 transactions that were completed by NMCSD purchase card holders.

   Data mining techniques, research methods, and judgmental selection were used to
   select transactions and individual cardholders for review. The Data Mining
   Division of the Office of the Deputy Inspector General for Auditing of the
   Department of Defense obtained purchase card transaction information from the
   Defense Manpower Data Center (DMDC). The Data Mining Division extracted
   and examined NMCSD transactions and identified transactions for review.
   Additionally, we judgmentally selected transactions for review based on our
   analysis of the DMDC information. In all, we reviewed 65 transactions from the
   DMDC database carried out by 32 cardholders, totaling approximately $66,000.

   A thorough review of each transaction was completed. Each available cardholder
   and approving official was interviewed. When personnel were no longer
   available, supervisors and requesting officials were interviewed. We interviewed
   personnel in the information technology department, the media services
   department, the library, and the safety department to determine if purchases from
   the 65 transactions were within hospital standards. For some transactions, audit
   personnel had to trace property from room to room or in different locations on the
   hospital compound. Personnel in the Material Management Department were
   interviewed to determine if items had gone through proper scrutiny before the
   transactions were completed. Because of the lack of supporting documentation,
   each transaction had to be reviewed in detail to determine the appropriateness.

   We reviewed the purchase request, the purchase approval process, and the
   payment approval process. Additionally, we verified that all employees had
   received required training within the mandated time frame, that all cardholders
   had valid letters of appointment, and that the number of cardholder accounts were
   within the required approving official span of control limitation. We evaluated
   the account reconciliation and certification process, the property receiving and
   accountability process, and the single purchase limits and billing cycle purchase
   limits for the 32 cardholders.

   Analytical Approach. Data mining is the process that discovers correlations,
   patterns, and trends by sifting through large repositories of data using
   pattern-recognition technologies and statistical techniques. Data mining is useful
   for identifying transactions that have a high risk of being inappropriate. We


                                       16
applied data mining technology to the 21,827 purchase card transactions dated
July 1, 2002, through June 21, 2003.

For the 21,827 transactions, we applied queries that were developed by DFAS.
The queries for abusive, improper, or unauthorized transactions included
indicators that were designed to identify transactions in the NMCSD purchase
card database that represent a particular characteristic indicating a lack of
compliance or potential abuse. Some of the indicators included in the queries
were:

       •   repetitive buying patterns and even-dollar purchases,

       •   multiple small charges by two to five cardholders with the same
           vendor,

       •   repetitive buying pattern near purchase card limits,

       •   multiple credits from the same vendor,

       •   issuance of frequent replacement cards, and

       •   weekend or holiday purchases.

Because data mining is a technology, not an overall solution, we also performed
judgmental queries of the NMCSD purchase card database. We searched for
vendors that did not appear to have a logical business interest with a military
treatment facility, such as consumer electronic stores or club warehouse retailers.
We also searched for other questionable vendors, such as home improvement
stores, restaurants, stationers, and variety discount stores.

We performed this audit from May 2003 through April 2004 in accordance with
generally accepted government auditing standards. During this time, the audit
was suspended for 4 months. Travel fund limitations during 2003 and the
reassignment of the audit staff to emerging statutory audit requirements caused us
to limit our review to NMCSD. Because of the increased focus on the purchase
card program throughout DoD, we do not plan to do further work at this time on
the use of purchase cards in the military health system.

Use of Computer-Processed Data. We relied on computer-processed data
provided by DMDC to achieve the audit objectives. Although we did not perform
a formal reliability assessment of the computer-processed data, we tested the
reliability of the data for each transaction selected for review. Additionally, we
compared cardholder monthly purchase card statements to the computer-
processed data and found only non-material errors. The reliability of the data
from the 65 transactions we reviewed was sufficient to support our conclusions.

Use of Technical Assistance. Personnel from the Data Mining Division of the
Office of the Deputy Inspector General for Auditing of the Department of
Defense assisted in the application of the DFAS indicator queries.




                                    17
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the DoD high-risk area to improve processes and controls to reduce contract risk.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed
    controls related to the adequacy of policies and oversight of the NMCSD
    purchase card program. We also assessed NMCSD’s self-evaluation applicable to
    those controls.

    Adequacy of Management Controls. We determined that five of the seven
    management controls related to the purchase card program had the potential for
    problems. The controls appeared to be in place when reviewed, but were not
    functioning adequately. Because we visited only NMCSD, we are not making a
    judgment on the materiality of the weaknesses identified.

    Adequacy of Management’s Self-Evaluation. The Department of the Navy,
    Bureau of Medicine and Surgery identified the purchase card program as a
    high-risk area. The Bureau of Medicine and Surgery guidance requires that
    purchase card programs be assessed annually to determine if material weaknesses
    exist. In September 2002 and August 2003, the Navy Fleet and Industrial Supply
    Center (FISC) completed an annual review of the NMCSD purchase card
    program. Each review evaluated 125 transactions against 6 critical elements. In
    September 2002, there were 16 deficiencies found in the areas of unsupported
    questionable items, misuse of the purchase card, and failure to use mandatory
    sources of supply. In August 2003, there were five deficiencies found. Both
    reviews found the purchase card program at NMCSD to be acceptable.

    In FY 2002, NMCSD Command Evaluation and Integrity Office used the
    FY 2002 FISC report as a substitute for the FY 2002 assessment. Command
    evaluation personnel conducted the FY 2003 purchase card program review and
    found that questionable and prohibited items were purchased and that supporting
    documentation was not available. In FY 2003, command evaluation also
    conducted an assessment of convenience checks and found lack of training for the
    check cashier and lack of documentation over the payment process to be
    weaknesses. Our results were generally consistent with the NMCSD Command
    Evaluation and Integrity Office findings.




                                        18
Appendix B. Prior Audit Coverage
    During the last 5 years, the General Accounting Office (GAO), the Inspector
    General of the Department of Defense (IG DoD), the Naval Audit Service (NAS),
    and the Navy Fleet and Industrial Supply Center (FISC) have issued 11 reports
    discussing the Department of Navy purchase card program. Unrestricted GAO
    reports can be accessed over the Internet at http://www.gao.gov. Unrestricted
    IG DoD reports can be accessed at http://www.dodig.osd.mil/audit/reports.

    Purchase cards carry with them an inherent risk of abuse or misuse, and recent
    audit reports provide evidence of failures of internal control systems designed to
    mitigate this risk. Purchase card audits and investigations reveal incidents of
    misuse, abuse, and fraud. Causes include inadequate command emphasis and
    poorly enforced internal controls. IG DoD Report No. D-2002-029, “Summary
    Report: DoD Purchase Card Program Audit Coverage,” December 27, 2001,
    identifies systemic issues within the purchase card program. These systemic
    issues included account reconciliation and certification, administrative controls,
    management oversight, property accountability, purchase card use, separation of
    duties, and training.


GAO
    GAO Report No. 03-168, “Internal Control Activities Need Improvement,”
    October 2002

    GAO Report No. 02-1041, “Navy Is Vulnerable to Fraud and Abuse But Is
    Taking Action To Resolve Control Weaknesses,” September 2002

    GAO Report No. 02-32, “Control Weaknesses Leave Two Navy Units Vulnerable
    to Fraud and Abuse,” November 2001


IG DoD
    IG DoD Report No. D-2003-109, “Summary Report on Joint Review of Selected
    DoD Purchase Card Transactions,” June 27, 2003

    IG DoD Report No. D-2002-075, “Controls Over the DoD Purchase Card
    Program,” March 29, 2002

    IG DoD Report No. D-2002-029, “Summary Report: DoD Purchase Card
    Program Audit Coverage,” December 27, 2001




                                        19
Navy
       FISC San Diego ltr 4200 Ser 210/3-376, “Annual Review/Audit of Purchase Card
       Program,” August 4, 2003

       FISC San Diego ltr 4200 Ser 230/2-501, “Annual Review/Audit of Purchase Card
       Program,” September 30, 2002

       NAS Report No. N2002-0070, “Naval Facilities Engineering Command
       Commercial Purchase Card Program,” August 14, 2002

       NAS Report No. N2002-0051, “Naval Sea Systems Command Commercial
       Purchase Card Program,” May 29, 2002

       NAS Report No. N2002-0023, “Management of the Purchase Card Program at
       Public Works Center, San Diego, CA,” January 10, 2002




                                        20
Appendix C. Transactions at Naval Medical
            Center San Diego
   Of the 65 transactions we reviewed, there were no unauthorized or potentially
   fraudulent transactions. However, there were nine abusive or improper
   transactions that are discussed below.

   Convenience check #122 for $2,250 dated September 27, 2002, was made
   payable to a laboratory technician testing for coccidioidomycosis at the Veterans
   Affairs Medical Center San Diego. The check paid for 900 tests ordered by the
   Naval Medical Center Division of Infectious Diseases. The Veterans Affairs
   laboratory technician submitted an invoice billing the Government for the tests on
   September 26, 2002. There was no receiving report, but we were advised by
   division personnel that test results were entered directly into patients’ records.
   We were not able to validate that test results were received because there was no
   list of patients tested. The order was electronically recorded as received on
   October 1, 2002, after notification of payment by the convenience check clerk.
   The Acquisition Division was not involved in ordering the tests. The Head,
   Material Management Department (HMD) advised us in an August 25, 2003,
   memorandum that Veterans Affairs could not perform the testing due to heavy
   workload and that Veterans Affairs apparently authorized the technician to
   perform the tests using the Veterans Affairs facility after his normal working
   hours. That transaction was considered improper and was referred to the
   Veterans Affairs Inspector General to determine if laboratory technicians at
   Veterans Affairs are permitted to use Government facilities for after-hours work.
   For this transaction, documentation justifying the need for Veterans Affairs to
   perform the tests was not prepared prior to the order, there was inadequate receipt
   and acceptance documentation for the 900 tests, and the purchase was reviewed
   and approved after the order was completed.

   Convenience check # 144 for $1,580 dated February 3, 2003, was made payable
   to a surgeon for travel and per diem expenses to assist in an active duty sailor’s
   surgery at NMCSD. That transaction is considered improper. Navy policy
   specifically prohibits the use of purchase card transactions for travel or
   travel-related expenses, and the travel could have been authorized under
   invitational travel orders in accordance with the Joint Travel Regulation,
   Volume II. The use of a convenience check was improperly authorized and not
   identified as an improper use during subsequent approving official reviews.

   Convenience check # 170 for $1,168.40 dated March 18, 2003, was made
   payable to a wholesale membership club for a mattress, flashlight, cookware set,
   microwave oven, shelving, and a membership card. The transaction supported
   branch medical clinic personnel on the remotely located San Clemente Island.
   The Head, Acquisitions Division authorized the purchase of the membership to
   meet mission-essential needs for the convenience of shopping at the wholesale
   membership club. The entire transaction is considered improper because Navy
   guidance permits the use of convenience checks only after the activity has made
   every attempt to use the purchase card. The items could have been purchased
   with the purchase card at other retail locations offering the same or similar items.


                                        21
Convenience checks must be made payable in the exact amount of purchase by
the convenience check clerk after items and costs are identified. That would have
required the purchaser to acquire authorization to use a convenience check, shop
at the wholesale membership club to identify merchandise and costs, travel to the
medical center for the check, and return to the wholesale membership club to pay
for the merchandise and complete the purchase transaction. Shopping at
membership warehouses, which do not accept purchase cards, perpetuates the
unnecessary use of convenience checks and bypasses Navy requirements to use
the checks only when the purchase card option is unavailable.

Transactions FY03D5-54133 (MVY CC22) and FY03D5-54134 (MVY CC23)
in the amount of $2,450 each, made on March 5, 2003, were general store
purchases from a frequently used vendor. The orders were placed for 7,000 “blue
linen prop stencil” at 9:29 a.m. and for 7,000 “white linen prop stencil” at
9:31 a.m. Linen prop stencils are iron-on logos used on sheets, pillowcases, and
scrubs to identify laundry as NMCSD property. The cardholder intentionally split
the requirement for 14,000 stencils, ordering enough of each color to stay within
the micro-purchase threshold of $2,500 and did not regard it as improper because
the purchases were for two different colored items. Navy guidance specifically
prohibits splitting requirements that exceed the micro-purchase limit because that
may violate statutory requirements for small business participation, competition,
the Service Contract Act, or Davis-Bacon Act requirements. The requirement for
14,000 stencils was not an appropriate use of the purchase card. The two
transactions are considered improper and another acquisition method should have
been used. In addition, the approving officer’s monthly review of cardholder
transactions did not identify the split requirement transactions as needing
corrective action.

Transaction FY02D4-2025344 (LVM CC09) in the amount of $522.50 on
August 1, 2002, was an Operating Room purchase for nine pairs of designer
protective eyewear and four protective cases. The eyewear was billed, when
shipped, on two separate transactions of $367.50 and $155.00.

We interviewed the HMD who provided us an August 22, 2003, memorandum for
the record of the circumstances surrounding the review and approval for the
purchase of designer protective eyewear. According to the memorandum, the
request was brought to the HMD for approval by technical review personnel.
According to technical review personnel, they were not comfortable approving
the new item request because of the questionable price of the eyewear. The HMD
conferred with the Head of the Operating Room who justified the designer
protective eyewear because the then-current $12 eyeglasses were extremely
uncomfortable to wear for 8 to 10 hours a day, and extensive research revealed
that only that designer’s protective eyewear met their comfort and safety criteria.
That justification appears questionable considering that lost eyewear would be
replaced only with less expensive generic model safety eyewear. The HMD
memorandum further states that continued research identified less expensive
glasses that met the safety and comfort criteria for $7 per pair. The designer
eyewear has been removed from the catalog and is no longer an authorized
purchase item.




                                    22
The current cardholder was not involved in processing the new item request for
the eyewear and placed the order based on a verbal authorization. The cardholder
advised us that operating room staff told him they believed the more expensive
designer eyewear was authorized as a morale booster for operating room staff.

Based on our interviews and documentation available for review, the need for
more expensive designer protective eyewear was not justified. There was no
documentation of the extensive research performed or the safety and comfort
criteria used to justify the purchase. A purchase request authorizing the purchase
was not available that documented the operating room requirement for the brand
of safety glasses purchased. As a result, the transaction is considered abusive.

Transaction FY03D5-95950 (NUL CC01) in the amount of $999.98 on
March 13, 2003, was for a digital camera and photo printer for the Pediatric
Intensive Care Unit (PICU). The digital camera cost $699.99 and the photo
printer cost $299.99. The items were received March 18, 2003, and as of
September 4, 2003, have been stored unused (in the original delivery box).

Justification for the camera was not documented on the purchase request. The
cardholder, the approving official, and the point of contact for the purchase
request are no longer assigned to NMCSD. The department head, who was also
the authorizing official, was unsure of the reason for purchasing the camera and
authorized the purchase because the director of the unit advised him that PICU
needed the camera. The division officer advised us that current PICU
photographic requirements, such as taking memorial pictures of terminally ill
children and photographs used for training purposes, are satisfied by the
pediatrics department and that the new camera will be used for those
requirements. We were also advised that the PICU planned to assist other
departments with their photographic needs, even though it was currently
operating without a camera.

The digital camera has been stored with other new items purchased for the
renovated PICU. We were advised by the HMD that new items for the renovated
PICU should have been scrutinized to ensure that they were mission-essential
requirements and that they were purchased in advance with funds set aside for
that purpose. The HMD advised us that the camera was not included as a PICU
item. Additionally, the camera was available for immediate use and did not need
to be stored pending completion of the PICU renovation.

Based on our interviews and documentation available for review, the camera
purchase was not justified because a credible need for the camera in the PICU
was not established. The camera purchase is considered abusive. We do not
challenge the purchase of the photo printer because it is functional as a printer
with other hardware purchased for the PICU.

Transaction FY03D6-99305 (NUL CC02) in the amount of $999.99 on
March 13, 2003, was for a digital video camcorder for the PICU. The camcorder
was received April 29, 2003, and as of September 4, 2003, has been stored unused
(in the original delivery box). We were advised that this transaction was
completed with transaction FY03D5-95950 for a digital camera.



                                     23
There is no purchase request available for this transaction. The cardholder and
the approving official were no longer assigned to NMCSD. The department head,
who was also the authorizing official, was unsure of the reason for purchasing the
digital camcorder and authorized the purchase because the director of the unit
advised him that PICU needed the camcorder. The division officer advised us
that PICU planned to use the camcorder to record training sessions and for other
training uses.

The digital camcorder has been stored with other new items purchased for the
renovated PICU. We were advised by the HMD that new items for the renovated
unit should have been scrutinized to ensure that they were mission-essential
requirements and purchased in advance with funds set aside for that purpose. The
HMD advised us that the camcorder was not scrutinized as a PICU item and its
use was not dependent on a completion date of the renovated PICU.

Based on our interviews and documentation available for review, the digital
camcorder purchase was not justified because a credible need for the camcorder
in the PICU was not established. The camcorder purchase is considered abusive.

Transaction FY03D2-514677 (NMK CC01) in the amount of $207.21 on
November 19, 2002, was a Clinical Investigation Department purchase from a
supermarket. The purchase was for bottled water, a deli platter, a sandwich fixing
tray, chips, fruit and cheese trays, juice, cookies, and sandwich rolls for the
November 20 and 21, 2002, “Antioxidant Conference.” The cardholder
purchased the food items identified on the November 15, 2002, purchase request,
which was signed by the authorizing official.

The NMCSD APC evaluated the transaction during the semi-annual review of
purchase card transactions. The APC determined that the food purchase exceeded
“light snack” requirements authorized for a conference and that the prohibited
food items were not mission essential. The APC also found that the transaction
was an improper use of appropriated funds. Based on the APC finding, we also
consider the transaction improper.

We followed up to determine if action was taken based on the APC findings.
Navy guidance requires referral of questionable legality, propriety, or correctness
to the head of the activity. We found that corrective action consisted of
counseling the current approving official on appropriate snacks for conferences.
The current approving official was not involved in this transaction. The
cardholder and approving official at the time of purchase were no longer stationed
at NMCSD. The authorizing official who determined which food items to
purchase was not counseled and the matter was not referred to the head of the
activity. We were advised by the HMD that despite the findings, the low dollar
value of the transaction did not warrant further action.

We also noted that the food items were purchased before funds were approved on
November 25, 2002, which created an unrecorded obligation of funds.




                                    24
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement and Acquisition Policy
     Director, Purchase Card Joint Program Management Office
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Commander, Naval Medical Center San Diego
Auditor General, Department of the Navy

Non-Defense Federal Organization
Office of Management and Budget
Inspector General of the Department of Veterans Affairs

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                          25
Department of the Navy Comments




                                  Omitted
                                  Omitted
                                  Omitted




                    27
28
29
30
31
32
33
34
35
36
     Final Report
      Reference




     Revised




37
38
39
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Readiness and Logistics Support prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.
Shelton R. Young
Michael A. Joseph
Timothy J. Tonkovic
Robert J. Hanlon
Anna P. Martin
Danny O. Hatten
Mary Ann Hubbell
Carmen J. Malone
Dennis R. Wokeck
Susann L. Cobb
